APPENDIX TABLE OF CONTENTS

Joan Carol Lipin v. Wisehart Springs Inn, Inc.,
EtAl., USCA10 No. 20-1007 (“LipinIF)
Opinions and Orders
United States Court of Appeals for the Tenth
Circuit, Mandate (February 24, 2021)
la
United States Court of Appeals for the Tenth
Circuit Denying Motion to Stay the Mandate
Pending an Application to the Supreme
Court for a Writ of Certiorari
(February 8, 2021)............................................. 3a
United States Court of Appeals for the Tenth
Circuit, Order and Judgment Filed
(Unpublished) Dated (January 15, 2021)........ 5a
United States District Court for the District of
Colorado (Denver), Final Judgment
(January 3, 2020).............................................. 18a
United States District Court for the District of
Colorado (Denver), Order on Motions to
Dismiss (January 3, 2020)............................... 21a

Rehearing Order
United States Court of Appeals for the Tenth
Circuit, Order Denying Petition for
Rehearing En Banc (February 16, 2021)........ 41a

APPENDIX TABLE OF CONTENTS (Cont.)
Order Documents
Appellant’s Certificate of Good Faith to
Disqualify Circuit Judge Eid for Egregious
Bias and Partiality Too High to Be
Constitutionally Tolerated, Pursuant to
28 U.S.C. § 144 and 28 U.S.C. § 445(a)
(February 26, 2021).......................................... 43a

\

Affidavit of Appellant In Support of Her Motion
to Disqualify Circuit Judge Eid for Egregious
Bias Too High to Be Constitutionally
Tolerated, and Partiality, Pursuant to
28 U.S.C. § 455(a) and 28 U.S.C. § 144
(February 26, 2021).......................................... 55a
Joan C. Lipin v Arthur Dodson Wisehart, EtAl.,
USCA10 NO. 18-1060 & 18-1176 (“UpinD:
Opinions and Orders
Corrected Satisfaction of Amended Judgment
(February 6, 2020)......................................

83a

United States Court of Appeals for the Tenth
Circuit, Mandate (May 15, 2019)..................... 85a
United States Court of Appeals for the Tenth
Circuit, Order Enforcing Mandate and
Imposing Filing Restrictions (May 15, 2019).. 87a
United States Court of Appeals for the Tenth
Circuit, Order to Show Cause (April 29, 2019) 92a

APPENDIX TABLE OF CONTENTS (Cont.)
United States District Court for the District of
Colorado (Denver), Amended Final Judgment
(June 6, 2019)........................................................ 95a
United States District Court the District of
Colorado (Denver), Amended Order re Cost
Bond (April 19, 2019).......................................... 97a
United States District Court for the District of
Colorado (Denver), Order re Cost Bond
(April 18, 2019)
103a
United States Court of Appeals for the Tenth
Circuit, Mandate (February 19, 2019)
109a
United States Court of Appeals for the Tenth
Circuit, Per Curium Order and Judgment
(Unpublished) (January 17, 2019)
110a
United States District Court for the District of
Colorado (Denver), Final Judgment
(February 12, 2018)
131a
United States District Court for the District of
Colorado (Denver) Order on Motions for
Summary Judgment (February 12, 2018)
133a

Rehearing Order
United States Court of Appeals for the Tenth
Circuit, Order Denying Petition for
Rehearing and Rehearing En Banc
(February 11, 2019)
141a

App.5a
UNITED STATES COURT OF APPEALS FOR THE
TENTH CIRCUIT, ORDER AND JUDGMENT
FILED (UNPUBLISHED) DATED
(JANUARY 15, 2021)
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
JOAN CAROL LIPIN,
Plaintiff-Appellan t,
v.
WISEHART SPRINGS INN, INC.; ARTHUR D.
WISEHART, IN HIS INDIVIDUAL CAPACITY AND
IN HIS CAPACITY AS PRESIDENT AND “ALTER-EGO” OF

Wisehart Springs Inn, Inc.; MARK APELMAN;
DEBBIE GRIFFITH, IN HER OFFICIAL CAPACITY AS
Delta County Assessor; REBECCA W. GEYER;
ELLENE. WISEHART; RICHARD HUNTER
KREYCIK; ERIN M. JAMESON,
Defendan ts-Appellees.
No. 20-1007
(D.C. No. l:19-CV-00935-RBJ)
(D. Colo.)
Before: LUCERO, HOLMES, and EID,
Circuit Judges.

App.6a

Plaintiff Joan C. Lipin appeals the dismissal, pur­
suant to Fed. R. Civ. P. 12(b)(6), of her claims arising
out of a dispute over property in Paonia, Colorado
(the “Property”). Exercising jurisdiction under 28 U.S.C.
§ 1291, we affirm the judgment of the district court.
Further, we conclude the appeal is frivolous. Accord­
ingly, we invite Defendants to move for an award of
sanctions pursuant to Fed. R. App. P, 38, and we direct
Lipin to respond by the designated deadline. We also
sua sponte impose filing restrictions on Lipin, subject
to any objection she files within twenty days from
the date of this decision.
BACKGROUND
This action is one of several brought by Lipin
arising out of a dispute concerning ownership of the
Property. She has pursued this matter in federal and
state court, in this jurisdiction and others. The
majority of the underlying facts surrounding the dis­
pute are set forth in Lipin v. Wisehart, 760 F. App’x
626, 629-32 (10th Cir. 2019) (“Lipin /”) (per curiam),
and we need not restate them here. In Lipin I, this
court affirmed the district court’s grant of summary
judgment against Lipin. The undisputed material facts
established that the Property was owned by the
Dorothy R. Wisehart Trust, Arthur McKee Wisehart
(“AMW”) and Arthur Dodson Wisehart (“ADW”) were
co-trustees of the Trust, documents purporting to
convey the Property to AMW himself and/or to Lipin
were invalid, and Lipin had no ownership interest in
the Property whatsoever. We rejected Lipin’s challenges
to the district court’s conclusions and found her appeal
to be frivolous, ultimately assessing sanctions in the
amount of $15,000 pursuant to Fed. R. App. P. 38 and

App.7a

imposing filing restrictions until Lipin paid the sanc­
tions.
Approximately two-and-a-half months after we
decided Lipin I, Lipin filed this action, once again
asserting she was the true owner of the Property and
seeking declaratory relief to that effect. She again
sought ejectment of Defendants and compensatory
damages. In this suit, she added claims for violations
of the Racketeer Influenced and Corrupt Organizations
Act, claims for violations of her civil rights under 42
U.S.C. § 1983, and assorted allegations of fraud,
conspiracy, and civil theft. She named all of the defen­
dants from the first action as well as Mark Apelman,
the Wiseharts’ attorney; Debbie Griffith, the Delta
County assessor; and Ellen Geyer, an Indiana attor­
ney who served as an expert witness for the defend­
ants in Lipin I.
Lipin’s history of litigation misconduct is well
documented. Indeed, multiple courts have surveyed
and documented cases throughout the country in which
she has been sanctioned for her behavior, including
the filing of frivolous suits. See, e.g., Lipin v. Hunt,
573 F. Supp. 2d 836, 842-43 (S.D.N.Y. 2008) (discussing
six prior cases in which Lipin was sanctioned for liti­
gation misconduct); Lipin v. Hunt, No. 14-cv-1081(RJS), 2015 WL 1344406, at *1 & n.l (S.D.N.Y. Mar.
20, 2015) (collecting twelve such cases). The District
Court for the Southern District of New York has
stated: “[Lipin’s] modus operandiis clear: she litigates
variations of the same meritless claims against an
ever-growing group of defendants over and over. Once
[Lipin] receives the inevitably unfavorable decision,
she simply brings the lawsuit again, adding lawyers,
judges, and court clerks as defendants.” Lipin v. Hunt,

App.8a

2015 WL 1344406, at *11. The district court in this
case found that this “is precisely what she has done
here.” R. Vol. 2 at 33. The court therefore dismissed
Lipin’s amended complaint under Rule I 2(b)(6) and
imposed filing restrictions barring her from bringing
any further pro se lawsuits in the District of Colorado,
in her name or anyone else’s name, “which raiseD her
claim of ownership of the Paonia property” or related
claims without first obtaining judicial leave. Id. at 39.
We consider the legal issues raised on appeal and
take measures to redress Lipin’s repeated abuse of
the litigation process.
DISCUSSION
Initially, we note that large portions of Lipin’s
briefs are devoted to irrelevant, conclusory, and incom­
prehensible argument. Fed. R. App. P. 28(a)(8)(A)
requires that an appellate brief include “appellant’s
contentions and the reasons for them, with citations
to the authorities and parts of the record on which
the appellant relies.” Arguments that consist of “mere
conclusory allegations with no citations to the record
or any legal authority for support” do not meet this
requirement and may be deemed waived. Garrett v.
Selby Connor Maddux & Janer\ 425 F.3d 836, 841
(10th Cir. 2005).! With these precepts established,
we turn to the three issues Lipin raises on appeal.
1 This is not the first time this court has found deficiencies in
Lipin’s written submissions to this court. Her briefing in Lipin I
was replete with similar problems. See Lipin v. Wisehart, 760
F. App’x at 633. Further, our resolution of the issues in this
appeal does not depend on our construction of Lipin’s pleadings:
even if we construed her arguments more generously, we would
readily conclude the}7 were meritless.

App.9a

1.

Issue Preclusion

Lipin first argues the district court misapplied the
doctrines of claim and issue preclusion in its order
dismissing her case and imposing filing restrictions.
We agree with the district court that issue preclusion
applies here, so we need not consider the applicability
of claim preclusion (res judicata).
Collateral estoppel, also referred to as issue
preclusion, “bars a party from relitigating an issue once
it has suffered an adverse determination on the issue,
even if the issue arises when the party is pursuing or
defending against a different claim.” Park Lake Res.
LLCv. US. Dep’t ofAgric., 378 F.3d 1132, 1136 (10th
Cir. 2004). The district court concluded, and Lipin does
not dispute, that each of her claims in this action
depended on a finding that she has an ownership
interest in the Property. Thus, because it was conclu­
sively established in Lipin /that Lipin does not have
any ownership interest in the Property, see Lipin,
760 F. App’x at 632-35, if collateral estoppel applies,
the district court properly dismissed her claims.
We apply a four-part test to determine whether
collateral estoppel applies:
(l) the issue previously decided is identical
with the one presented in the action in
question, (2) the prior action has been
finally adjudicated on the merits, (3) the party
against whom the doctrine is invoked was a
party or in privity with a party to the prior
adjudication, and (4) the party against whom
the doctrine is raised had a full and fair
opportunity to litigate the issue in the prior
action.

App.lOa

Murdock v. Ute Indian Tribe of Uintah & Ouray Rsrv.,
975 F.2d 683, 687 (lOth Cir. 1992) (internal quotation
marks omitted). We have no trouble concluding those
elements are met here.
Regarding the first element, the relevant issue
is whether Lipin has any interest in the Property. In
her amended complaint, Lipin alleges that she is “the
legal title owner, in fee simple absolute, of the Prop­
erty].” R. Vol. 1 at 246. Her claims for relief demand
damages, declaratory relief that she is the owner of
the Property, and ejectment of Defendants from the
Property. Id. at 272. She is not entitled to such relief
if, as the district court held, she is not the legal
owner of the Property. Lipin does not challenge this
conclusion on appeal. Instead, she appears to argue
the ownership of the Property was not fully decided
in Lipin I. This contention, though, is plainly belied
by the court’s summary judgment order in the earlier
case, which we summarized in our decision affirming
the same:
In February 2018, the district court denied
Lipin’s summary judgment motion, granted
Defendants’ cross-motion, and entered judg­
ment for Defendants. In doing so, the court
found there were no material disputed facts
and that as a matter of law AMW and ADW
were co-trustees of the Trust pursuant to the
Appointment of Co-Trustee document and
that AMW had no right as a co-trustee to
convey the Property to himself individually.
. . . [T]he district court held the Trust contin­
ued to own the Property because AMW held
no interest in it when he quit-claimed his
interest to Lipin in 2016. As a result, the

App.lla

district court held, Lipin’s trespass and eject­
ment claims necessarily failed and Defendants
were entitled to summary judgment.
Lipin I, 760 F. App’x at 631. The first element of
collateral estoppel is therefore met. Regarding the
second element, we have “recognize [d] that summary
judgment operates as an adjudication on the merits.”
Goichman v. City of Aspen, 859 F.2d 1466, 1471
n.13 (10th Cir. 1988). Lipin does not contest this wellestablished principle. She does argue, however, that
the prior adjudication of her ownership of the Property
was not “final” because the defendants in Lipin I
obtained the judgment against her through fraud.
She relies upon Fed. R. Civ. P. 60(d)(1) and (3), which
allow a court to “entertain an independent action to
relieve a party from a judgment, order, or proceeding”
or to “set aside a judgment for fraud on the court.”
But Lipin’s amended complaint did not ask the district
court to set aside the judgment that we affirmed in
Lipin /; instead, she recast substantially all of the
substantive allegations made in the first action and
added new defendants. Moreover, Lipin’s RICO claims
in this action do not undermine the preclusive effect
of the judgment that this court affirmed in Lipin I.
See Knight v. Mooring Cap. Fund, LLC, 749 F.3d 1180,
1187 (10th Cir. 2014) (“[T]he remedies under RICO
do not include setting aside a prior judgment or under­
mining its preclusive effect by a collateral attack.”).
And the type of “fraud” Lipin describes in her amended
complaint—false statements, fraudulent documents,
and perjurious testimony regarding Defendants’ own­
ership interest in the Property—does not rise to the
level of fraud on the court, as is required for relief
under Rule 60(d)(3):

App.l2a

Fraud on the court... is fraud which is di­
rected to the judicial machinery itself and is
not fraud between the parties or fraudulent
documents, false statements or perjury ... It
is thus fraud where the court or a member
is corrupted or influenced or influence is
attempted or where the judge has not per­
formed his judicial function—thus where
the impartial functions of the court have
been directly corrupted.
Bulloch v. United States, 763 F.2d 1115, 1121 (10th Cir.
1985). We therefore conclude that Lipin I was finally
adjudicated on its merits, notwithstanding Lipin’s
allegations in the present suit. The second element of
collateral estoppel is therefore satisfied.
The third and fourth elements are satisfied as well.
The doctrine is invoked against Joan Lipin, the
plaintiff here and in Lipin I, so privity exists. “In the
context of a defendant’s motion for summary judg­
ment, a plaintiff has a full and fair opportunity to
litigate if it is allowed to submit evidence to defeat a
motion for summary judgment.” Matosahtos Corn.
Corp. v. Applebee’s Inc., 245 F.3d 1203, 1211 (10th Cir.
2001). Lipin was allowed to, and did, submit evidence
in opposition to the motion for summary judgment in
Lipin I. She also moved for summary judgment herself.
Lipin I, 760 F. App’x at 631. She thus had a full and
fair opportunity to support her claim that she owns
the Property.
Because all four elements of collateral estoppel
are satisfied, the district court correctly dismissed
Lipin’s amended complaint.

App.l3a

The district court also dismissed some of Lipin’s
claims against Griffith (the Delta County assessor)
and Geyer (the attorney who served as an expert in
the prior litigation) under the Colorado Governmental
Immunity Act and the doctrine of testifying witness
immunity, respectively. We affirm these dismissals for
substantially the same reasons set forth in the district
court’s well-reasoned order dated January 3, 2020.
See R. Vol. 2 at 37-38.
2.

Judicial Notice

Lipin next argues the district court erred by
taking judicial notice of Lipin /when it dismissed her
complaint on the basis of issue preclusion without
converting the motion to a Fed. R. Civ. P. 56 motion
for summary judgment. She further argues the district
court erred by not taking judicial notice of an affidavit
in another case. These arguments lack merit. A district
court has authority to “take judicial notice of its own
records to evaluate preclusion.” Knight, 749 F.3d at 11
87; see also Gee v. Pacheco, 627 F.3d 1178, 1194 (10th
Cir. 2010) (“The district court properly referred to its
records to dismiss these allegations.”) (finding claim
preclusion). Moreover, because the facts of Lipin I
conclusively establish that Lipin is not entitled to
any of the relief she seeks in the instant action, her
reference to an affidavit in another case is immaterial.
3.

Disqualification

Last, Lipin asserts the district court erred in
denying her cross-motion to disqualify Apelman as
counsel for some of the Defendants. Her argument on
this issue consists only of a single, conclusory sentence
accompanied by citations to three non-binding author-

App.l4a

ities and lacking any explanation or analysis what­
soever. Under these circumstances, we conclude Lipin
waived her challenge to the district court’s order
denying her motion to disqualify. See Garrett, 425 F.3d
at 841.
SANCTIONS
All Defendants have argued that sanctions are
appropriate under Fed. R. App. P. 38 because the
appeal is frivolous. “An appeal is frivolous when the
result is obvious, or the appellant’s arguments of error
are wholly without merit.” Braley v. Campbell, 832
F.2d 1504, 1510 (10th Cir. 1987) (internal quotation
marks omitted). Other indicia of a frivolous appeal
include rambling briefs, citation to irrelevant authority,
and continued attempts to relitigate matters already
concluded. See id. at 1513 (collecting cases from
other circuits finding such conduct frivolous). It is
particularly troubling that the sanctions that multiple
courts have imposed on Lipin for repeated abuse of
the judicial process have not meaningfully deterred
her conduct.
Before we can impose sanctions for a frivolous
appeal, the person who may be subject to sanctions
must receive notice that sanctions are being considered
and an opportunity to respond. Id. at 1514-15; see Fed.
R. App. P. 38 (stating court may award sanctions
“after a separately filed motion or notice from the
court and reasonable opportunity to respond”). Because
Defendants have not requested sanctions in a separ­
ately filed motion, Lipin has not had an opportunity
to respond to their request. We could provide such an
opportunity by ordering Lipin to show cause as to
why we should not sanction her under Rule 38, but

App.l5a

we would also like to receive additional information
from Defendants to help inform our sanctions decision.
Just as we did in Lipin I, therefore, we order
that, within fifteen days of this order and judgment,
Defendants file a motion describing in detail the
sanctions sought and the basis therefor. Lipin shall
have fifteen days from the last-filed submission by
Defendants to show cause why she should not be
sanctioned. The parties’ submissions on this subject
will guide our determination regarding the imposition
and size of an appropriate monetary sanction. All
parties shall comply with the length limits in Fed. R.
App. P. 27(d)(2); if, however, Defendants file separate
motions and Lipin elects to file a unitary response,
her response must not exceed thirty pages. The parties
need not provide hard copies of their filings.
FILING RESTRICTIONS
“Federal courts have the inherent power to
regulate the activities of abusive litigants by imposing
carefully tailored restrictions under appropriate circum­
stances.” Ysais v. Richardson, 603 F.3d 1175, 1180
(10th Cir. 2010). Filing restrictions are appropriate
where the litigant’s lengthy and abusive history is set
forth; the court provides guidelines as to what the
litigant may do to obtain its permission to file an action;
and the litigant receives notice and an opportunity to
oppose the court’s order before it is implemented. Id.
We conclude that Lipin’s previous appellate filings
warrant imposing limited restrictions upon her with
respect to further pro se filings with this court.
Therefore, in order to proceed pro se in this court in
any civil appeal or original proceeding for mandamus
or prohibition that raises the same or similar issues

. App.l6a

relating to the Property as asserted in Tenth Circuit
Case Nos. 18-1060, 18-1176, and 20-1007, Lipin must
provide this court with:
1. A list of all appeals or original proceedings filed
concerning the Property, whether currently pending or
previously filed with this court, including the name,
number, and citation, if applicable, of each case, and
the current status or disposition of each appeal or
original proceeding; and
2. A notarized affidavit, in proper legal form,
which recites the issues she seeks to present, including
a short discussion of the legal basis asserted therefor,
and describing with particularity the order being
challenged. The affidavit must also certify, to the
best of Lipin’s knowledge, that the legal arguments
being raised are not- frivolous or made in bad faith;
that they are warranted by existing law or a good faith
argument for the extension, modification, or reversal
of existing law; that the appeal or original proceeding
is not interposed for any improper purpose, such as
delay or to needlessly increase the cost of litigation;
and that she will comply with all appellate and local
rules of this court.
These filings shall be submitted to the Clerk of
the court, who shall forward them for review to the
Chief Judge or his designee, to determine whether to
permit Lipin to proceed with a pro se civil appeal or
original proceeding. Without such authorization, the
matter will be dismissed. If the Chief Judge or his
designee authorizes a pro se appeal or original proceed­
ing to proceed, an order shall be entered indicating
that the matter shall proceed in accordance with the
Federal Rules of Appellate Procedure and the Tenth
Circuit Rules.

App.l7a

Lipin shall have twenty days from the date of this
decision to file written objections, limited to fifteen
pages, to these proposed restrictions. Unless this
court orders otherwise upon review of any objections,
the restrictions shall take effect thirty days from the
date of this order and judgment and shall apply to
any appeal filed by Lipin after that time.
CONCLUSION
For the foregoing reasons, we affirm the judgment
of the district court. Defendants are invited to move
for an award of sanctions against Lipin, and Lipin shall
respond by the designated deadline. In addition, Lipin
shall have twenty days from the date of this decision to
file written objections to the proposed filing restric­
tions.

Entered for the Court
/s/Allison H, Eid
Circuit Judge

App.l8a
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
(DENVER), FINAL JUDGMENT
(JANUARY 3, 2020)
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
JOAN CAROL LIPIN,
Plaintiff/Counter
Defendant;
v.
WISEHART SPRINGS INN, INC.; ARTHUR D.
WISEHART, IN HIS INDIVIDUAL CAPACITY AND IN HIS
capacity as President and “Alter-Ego” of
Wisehart Springs Inn, Inc.; MARK APELMAN;
DEBBIE GRIFFITH, in her official capacity as
Delta County Assessor; REBECCA W. GEYER;

ELLENE. WISEHART; RICHARD HUNTER
KREYCIK; ERIN M. JAMESON,
Defendants.
(D.C. No. 19-CV-00935-RBJ)
In accordance with the orders filed during the
pendency of this case, and pursuant to Fed. R. Civ. P.
58(a), the following Final Judgment is hereby entered.
Pursuant to the ORDER [ECF No. 32] of Judge
R. Brooke Jackson entered on January 3, 2020, it is

App.l9a

ORDERED that the Wisehart defendant’s motion
to dismiss [ECF No. 12] is GRANTED, Geyer's motion
to dismiss [ECF No. 19] is GRANTED and Debbie
Griffith’s motion to dismiss [ECF No. 22] is GRANTED.
It is
FURTHER ORDERED that Plaintiffs motion to
disqualify counsel [ECF No. 16] is DENIED. It is
FURTHER ORDERED that judgment is entered on
behalf of the defendants, Wisehart Springs Inn, Inc.,
Arthur D. Wisehart, Mark Apelman, Debbie Griffith,
Rebecca W. Geyer, Ellen E. Wisehart, Richard Hunter
Kreycik, and Erin M. Jameson, and against the
plaintiff, Joan C. Lipin. It is
FURTHER ORDERED that as the prevailing
parties, the defendants are awarded costs to be taxed
by the Clerk of Court pursuant to Fed. R. Civ. P.
54(d)(1) and D.C. Colo. L. Civ. R. 54.1. It is
FURTHER ORDERED that Ms. Lipin is expressly
precluded from filing another prose lawsuit, in her
name or in anyone else's name, in the United States
District Court for the District of Colorado, which
raises her,, claim of ownership of the Paonia property
or her claim that the Co-Trustee Agreement is invalid
or unenforceable without the express advance approval
of one of the United States District Judges in this
district. It is
.
FURTHER ORDERED that this civil action and
all claims therein are dismissed with prejudice. It is
Dated at Denver, Colorado this 3th day of Janu­
ary, 2020. .
For the Court:

App.20a
Jeffrey P. Colwell
Clerk
Bv: /s/ J. Dvnes
Deputy Clerk

App.21a
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF COLORADO (DENVER),
ORDER ON MOTIONS TO DISMISS
(JANUARY 3, 2020)
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
JOAN CAROL LIPIN,
Plaintiff,
v.
WISEHART SPRINGS INN, INC.; ARTHUR D.
WISEHART, IN HIS INDIVIDUAL CAPACITY AND IN HIS
capacity as President and “Alter-Ego” of
Wisehart Springs Inn, Inc.; MARK APELMAN;

DEBBIE GRIFFITH, IN HER OFFICIAL CAPACITY AS

Delta County Assessor; REBECCA W. GEYER;
ELLENE. WISEHART; RICHARD HUNTER
KREYCIK; ERIN M. JAMESON,
Defendants.
(D.C. No. 19-cv-00935-RBJ)
Before: R. Brooke JACKSON,
United States District Judge.
This order addresses (l) the Wisehart defendants’
motion to dismiss and impose filing restrictions on
plaintiff; (2) plaintiffs motion to disqualify attorney
Mark Apelman and his law firm; (3) defendant Geyer’s

App.22a

motion to dismiss; and (4) defendant Griffith’s motion
to dismiss. Plaintiffs motion is denied, but the
defendants’ motions are granted.

BACKGROUND
In this case Joan C. Lipin claims, among other
things, that Arthur D. Wisehart, Ellen E. Wisehart,
Richard Hunter Kreycik, and Erin M. Jameson have
operated the Wisehart Springs Inn in Paonia, Colorado
as a cover for illegal narcotics trafficking and money
laundering. I refer to these five defendants as the
“Wisehart defendants.” Defendant Mark Apelman is
the Wisehart defendants’ attorney. Rebecca Geyer is
an Indiana-based lawyer who provided expert opinions
in a previous lawsuit. Debbie Griffith is the Delta
County Assessor. Ms. Lipin’s Amended Complaint
asserts violations of RICO and other wrongs.
However, these claims cannot be understood or
determined without knowing the context in which
they are asserted. I provide that context by taking
judicial notice of two other lawsuits in this district
and one in state court involving Ms. Lipin and the
Wiseharts.
Lipin v. Wisehart I
On March 21, 2016 Ms. Lipin sued the same
Wisehart defendants, minus the Wisehart Springs
Inn, concerning the same property in Paonia, Colorado
that is the subject of the present case. Ultimately, I
granted summary judgment in defendants’ favor,
Lipin v. Wisehart, No. 16-cv-00661-RBJ-STV, 2018
WL 828024 (D. Colo. Feb. 9, 2018). That decision was
affirmed by the Tenth Circuit in Lipin v. Wisehart;

App.23a

760 F. App’x 626 (10th Cir. 2019) (unpublished). I will
refer to that case as Lipin v. Wisehart I.
The pertinent facts, taken from Lipin v. Wisehart
I, began in 1987 when Dorothy Wisehart created the
Dorothy R. Wisehart Trust (the Trust). She named
herself and her son, Arthur McKee Wisehart (“AMW”)
as co-trustees. As described by the Tenth Circuit,
She intended for the Trust assets to qualify
for the $1 million “Generation Skipping Trans­
fer Exclusion” for federal estate tax purposes
and therefore directed in the Trust Agree­
ment that $1 million would remain in the
Trust upon her death... and that AMW’s
children and his wife, Elizabeth, would
become income beneficiaries of income from
these assets.
760 F. App’x at 629.
AMW had four children: Arthur Dodson Wisehart
(“ADW”), Ellen Wisehart, Winston Wisehart, and
William Wisehart. In 1992 his daughter Ellen Wisehart
and her husband, Richard Kreycik, bought the property
in Paonia, Colorado that ultimately has become the
subject of all this litigation. They did so through a
trust called the Morning Sun Farm Trust. The property
consists of four parcels of land. The Wisehart Springs
Inn is located on the land.
In 1993 Dorothy Wisehart died. AMW became
the sole Trustee of the Trust. AMW’s wife, Elizabeth,
and four children (ADW, Ellen, Winston and William)
became income beneficiaries of the Trust.
In 1995 Ellen and her husband Richard quit­
claimed the Paonia 'property to the Trust. At that

App.24a

time there was still debt on the property. In 1996
AMW assumed responsibility for that debt (which
might explain some of the things that happened
later). The debt was paid, but it is unclear where the
funds came from.
In 2009 four of the five income beneficiaries of
the Trust, exercising authority granted in the Trust
Agreement, removed AMW as the sole trustee of the
Trust and appointed AMW and ADW as co-trustees.
AMW and ADW accepted their appointments as co­
trustees.
In 2013 AMW’s wife, Elizabeth, died. At that
time ADW and his wife, Erin, and Ellen Wisehart
and her husband, Richard, lived on the property.
ADW and Erin operated the Wisehart Springs Inn.
In 2015 AMW married Joan C. Lipin. AMW was
a lawyer of many years’ experience. Ms. Lipin was
his former client and paralegal. The Tenth Circuit
described Joan as having “nearly two decades of
experience as an active pro se litigant in federal and
state courts in the Northeast.” 760 F. App’x at 630. Ms.
Lipin has indicated that she is a law school graduate.”
Id
In 2015, shortly after marrying Joan Lipin, AMW
sued his son ADW, his son Winston, and the Wisehart
Springs Inn in federal court in New Jersey. He
alleged that the defendants had conspired to steal
property from him, including the Paonia property, in
violation of RICO. That lawsuit was later transferred
to this district. I will come back to it later.
Still in 2015 AMW recorded two notices in the real
estate records of Delta County, Colorado in which he
stated (incorrectly) that he was the sole trustee of the

App.25a

Trust, and (incorrectly) that the Trust had trans­
ferred the Paonia property to him by warranty deed.
In January 2016, AMW (or Ms. Lipin) recorded
four quit-claim deeds, one for each of the four parcels
of the Paonia property, purporting to convey the parcels
to Ms. Lipin. In February 2016 Ms. Lipin informed
the defendants that they were trespassing; that they
were illegally operating the Wisehart Springs Inn;
and that she planned to sell at least three of the four
parcels.
On March 16, 2016 ADW filed a lawsuit against
AMW and Ms. Lipin in the Delta District Court seeking
declarations that the Trust owned the property. Five
days later, on March 21, 2016, Ms. Lipin filed Lipin
v. Wisehart I in this court. She sought equitable
relief, essentially to eject ADW, Erin, Ellen and
Richard from the Paonia property.
On February 9, 2018 I granted summary judgment
in favor of the defendants. 2019 WL 828024 at *3. I
found that Ms. Lipin had provided “no evidence that
there .was anything flawed or invalid about the
Appointment of Co-Trustee Document.” Id, /further
found that AMW had no right as Co-Trustee to convey
the Paonia property without the signature of the
other Co-Trustee, much less to convey it to himself.
Id. Thus, I concluded that “Ms. Lipin has no interest
in the Property. The Property continues to belong to
the DRW Trust.” Id.
Ms. Lipin appealed. The Tenth Circuit affirmed the
grant of summary judgment in favor of the defendants.
Defendants requested sanctions against Ms. Lipin.
The court stated, “We have no difficulty concluding
Lipin’s appeals are frivolous under Rule 38.” 760 F.

App.26a

App’x at 637. However, because “the person who may
be subject to sanctions must receive notice that
sanctions are being considered and an opportunity to
respond,” the court granted Ms. Lipin fifteen days to
show cause as to why she should not be sanctioned.
Id.
Ms. Lipin did not show cause. On March 4, 2019
the Tenth Circuit imposed sanctions. Lipin v. Wisehart,
et al., Nos. 18-1060 and 18-1176, slip op. at 2 (10th Cir.
March 4, 2009). On May 15, 2019 the Tenth Circuit
remanded the case to this Court with directions to
reduce the $15,000 sanctions order to judgment (includ­
ing interest on any unpaid portion) and indicating
that further appeals by Ms. Lipin would be summarily
dismissed unless she submits proof of payment of the
sanctions judgment. ECF No. 142. I issued the judg­
ment as directed and, in doing so, ordered that a
$10,000 cost bond held in the court registry plus
accumulated interest would be released to defend­
ants’ counsel in partial satisfaction of the judgment.
ECF No. 145. Whether the remainder of the sanctions
judgment has been paid is unknown to me.1
1 Ms. Lipin is not a stranger to judicial sanctions. In Lipin v.
Hunt, 573 F. Supp. 2d 836 (S.D.N.Y. 2008), the court stated
that “Ms. Lipin has been sanctioned severely by other courts for
her litigation conduct,” noting six cases in which monetary
sanctions had been imposed for her litigation misconduct. Id. at
839-41. The court enjoined her from further litigation concern­
ing claims relating to her father’s estate or estate property
without first obtaining leave of the court. Id. at 846. In a separate
but more recent case of the same name, a different judge began
his opinion by stating, “Plaintiff Joan C. Lipin, proceeding pro
se, has a long and well-documented history of vexatious litiga­
tion relating to claims originating a decade ago in Maine
probate court.” Lipin v. Hunt, No. 14-cv-1081. 2015 WL 1344406,

App.27a

Wisehart v. Wisehart (federal)
This is the lawsuit mentioned above that was
filed by AMW pro se (or someone on his behalf) in
federal court in New Jersey in 2015, shortly after
AMW married Ms. Lipin. It was transferred to the
District of Colorado on January 4, 2018. No. 18-cv00021-MSK-NYW. The defendants were ADW, the
Wisehart Springs Inn, and Charles Winston Wisehart.
The Complaint described AMW as having been
born on July 3, 1928, which made him 87 years old at
the time of the filing, and as a graduate of the Uni­
versity of Michigan Law School in 1954, with various
honors received thereafter. ECF No. 1 at KH 13-17 in
18-cv-00021. Much like the present case, the plaintiff
alleged that the defendants conspired with themselves
and with William Wisehart, Ellen Wisehart, Erin Jame­
son and Richard Kreycik to steal the Paonia property
from him and the Trust, and to engage in wrongful acts
on the property including illegal narcotics activities,
mail fraud, wire fraud, extortion and money laundering,
all in violation of RICO. See generally id. at HH18127.2
The New Jersey court denied plaintiffs motion to
disqualify defense counsel but granted defendant’s
at *1 (S.D.N.Y. March 20, 2015). The case was filed in violation
of previously-imposed filing restrictions. The court dismissed
Ms. Lipin’s claims sua sponte, with prejudice. Tt did not impose
monetary sanctions, fearing that it would just prolong the liti­
gation, but it warned that fines or even imprisonment would
follow if she attempted to raise the same issues in another case.
Id. at 11.
2 The Complaint also references properties in New York and
Ohio, id. at 19, but the Paonia property is its predominant focus.

App.28a

motion to dismiss the case without prejudice. ECF
No. 26 in 18-CV-00021. Plaintiff was, however, granted
leave to amend in order properly to alleged venue. ECF
No. 27. After plaintiff failed to file an amended com­
plaint, the case was dismissed with prejudice. ECF No.
28. Plaintiff moved to vacate that order. Ultimately,
the court did vacate the dismissal order and, instead,
transferred the case to the District of Colorado. ECF
No. 63.
Many pleadings later, plaintiff filed a motion for
summary judgment. ECF No. 127. On March 5, 2019
the court, by Judge Krieger, denied that motion,
finding that “Plaintiff has not come forward with evi­
dence sufficient to state a prima facie claim [under
RICO] even in the absence of a response by the
Defendants.” ECF No. 196 at 4. The court granted
the plaintiff twenty-one days to submit admissible
evidence sufficient to support his claims. Id. at 6.
Plaintiff filed a response, ECF No. 202, but also filed
an appeal. ECF No. 198. The appeal was dismissed
for lack of jurisdiction. ECF No. 205. The case
remains in the district court, and its future is uncertain
at this time.
Ms. Lipin filed the present case approximately
three weeks after the court denied plaintiffs summary
judgment motion in Wisehart v. Wisehart.
Wisehart v. Wisehart (Delta County)
On March 16, 2017 ADM, as Co-Trustee of the
Trust, filed a lawsuit in the District Court for Delta
County, Colorado against AMW and Ms. Lipin. No.
16CV30032. ADM sought a declaration that the Paonia
property was owned solely by the Trust and damages
for breach of fiduciary duty and other common law

App.29a

theories and for the recording of ineffective docu­
ments in the real estate records of Delta County. In
apparent reaction to that filing, Ms. Lipin filed Lipin
v. Wisehart /in this Court five days later. A chronology
of the case can be found in the order of Delta District
Judge Steven L. Schultz issued March 26, 2019, filed
as ECF No. 12-2 in the present case.
Briefly, as shown in Judge Schultz’s order, the
AMW and Ms. Lipin were served and filed motions to
dismiss and other motions, but they never answered.
After twice denying plaintiffs motion for a default, in
order to give AMW and Ms. Lipin a further opportunity
to answer, the clerk entered a default. The court set
a hearing on plaintiffs motion for a default judgment,
but neither AMW nor Ms. Lipin nor anyone on their
behalf appeared. The court was satisfied that a
default judgment should enter but, nevertheless, set
a hearing on August 20, 2018 to consider damages.
The defendants tried to call in for that hearing but
the court denied that request, “given the vexatious
history of the Defendants’ involvement in this case
and the complexity of the remaining damages issues.”
Id. at 5, 1| 10. Nevertheless, the court rescheduled
the hearing for October 12, 2018. AMW and Ms.
Lipin failed to appear. Id. 1) 11.
In its order of March 26, 2019, the court entered
a declaratory judgment that the Paonia property was
vested solely in the Trust, that AMW and ADW were
validly appointed as Co-Trustees, and that any sale
or disposition of the property requires the approval of
both Trustees so long as there remain two Co-Trustees.
Id. at 6, f 1. This order was consistent with this Court’s
order to the same effect in Lipin v. Wisehart I, as
affirmed by the Tenth Circuit.

App.30a

The court also found that AMW’s filing of a deed
of trust, an affidavit, two notices of transfer, and four
quitclaim deeds contrary to the true ownership of the
property constituted self-dealing and a breach of
fiduciary duty, such that all such recorded documents
were void and set aside. Id. 11) 2-5. The court described
these documents as “either groundless, contain a
material misstatement or false claim, or are otherwise
invalid and are spurious document, pursuant to
C.R.S. § 38-35-109(3) and C.R.S. § 38-35-201(3), or
because they were procured or resulted from the
improper acts of Arthur McKee Wisehart, in breach of
his fiduciary duties to the trust and to the beneficiaries
thereof.” Id. at 7, K 8.
As for Ms. Lipin, the court found that AMW could
not convey an interest in the Paonia property to her,
and indeed, Ms. Lipin “had actual knowledge, inquiry
notice, and/or constructive notice that Arthur McKee
Wisehart had no authority to convey the Paonia
Property to himself, that she was not a bona fide
purchaser for value of the Paonia Property, and that
those Recorded Documents under which she claims
ownership were invalid and ineffective to convey title
to the Paonia Property,” Id. at 6, K1 6-7.
The court found that the plaintiffs were entitled
to statutory penalties of $6,000 ($1,000 for each of
the six recorded bogus documents) jointly and severally
against AMW and Ms. Lipin. Id. at 7, 10-12. In
addition, the court found AMW and Ms. Lipin liable
for civil theft, Id. at 9, Kt 24-26; and civil conspiracy,
Id. at KK 28-29. It enjoined AMW and Ms. Lipin from
recording any further documents affecting title to the
Paonia property on a.pro se basis without first acquir­
ing leave of court. Id. at 10, KK 32-34.

App.31a

The Court also found that AMW and Ms. Lipin’s
conduct in the lawsuit was frivolous, vexatious, and
engaged in by them in bad faith and to increase the
costs to ADW to recover the illegally transferred prop­
erty, noting that it was relying on the court’s own
findings but also the findings and conclusions of this
Court and the Tenth Circuit in Lipin v. Wisehart I.
It awarded attorney’s fees in the amount of $31,745
against both defendants and an additional $1,200
against AMW alone. Id. at 12, K 48.
The present case was filed by Ms. Lipin on March
29, 2019. This was three days after Judge Schultz’s
decision in the Delta County case (and as noted earlier,
approximately three weeks after Judge Krieger denied
plaintiffs (AMW’s) motion for summary judgment in
Wisehart v. Wisehart (federal case).
ANALYSIS AND CONCLUSIONS
A.

Motion to Dismiss (Wisehart Defendants), ECF
No. 12.

Preliminarily, in the more recent Lipin v. Hunt
case, supra n.l, the court stated, “[Ms. Lipin’s] modus
operandi is clear: she litigates variations of the same
meritless claims against an ever-growing group of
defendants over and over. Once Plaintiff receives the
inevitably unfavorable decision, she simply brings
the lawsuit again, adding lawyers, judges, and court
clerks as defendants.” 2015 WL 1344406 at *11.
That is precisely what she has done here. Despite
the contrary rulings from this Court, the Tenth
Circuit, and the Delta County District Court, Ms.
Lipin asserts, once again, that she is the legal title
owner of the Paonia property. ECF No. 1 at 1| 16.

App.32a

This time she joins the Wisehart defendants’ lawyer,
and the Indiana lawyer who was hired by the Wisehart
defendants to express opinions in the Delta County
case and in Lipin v. Wisehart I, and the Delta County
Assessor, as additional defendants. What’s more,
despite Judge Krieger’s assessment of the RICO claim
asserted by or in the name of AMW in Wisehart v.
Wisehart (federal), Ms. Lipin brings a substantially
similar RICO claim in this case. It appears that each
time Ms. Lipin sustains a loss in one court (and
regardless whether monetary sanctions were imposed),
she quickly files a similar case in another court.
The Wisehart defendants argue that Ms. Lipin’s
claims against them, which all rest on the premise
that she owns the Paonia property, are barred by
claim preclusion, either by res judicata or by collateral
estoppel. Issue preclusion (collateral estoppel) is
established if the defendant shows
(l) the issue previously decided is identical
with the one presented in the action in
question, (2) the prior action has been finally
adjudicated on the merits, (3) the party
against whom the doctrine is invoked was a
party or in privity with a party to the prior
adjudication, and (4) the party against whom
the doctrine is raised had a full and fair
opportunity to litigate the issue in the prior
action.
Murdock v. Ute Indian Tribe of Uintah and Ouray
Reservation, 975 F.2d 683, 687 (10th Cir. 1992).
I find that the issues related to ownership of the
Paonia property—the relevant terms of the Trust;
the validity of the appointment of Co-Trustees, the

App.33a

Trust’s ownership of the property; the requirement
that both Co-Trustees (AMW and ADW) must approve
any disposition of the property, which has not occurred;
and Ms. Lipin’s lack of any valid claim to ownership
of the property-arc identical to issues presented and
decided in Lipin v. Wisehart I. That action has been
finally adjudicated on the merits. Ms. Lipin had a
full and fair opportunity to litigate the issues (and
any variations on the theme such as to assert a RICO
violation) in that case.
Ms. Lipin’s response to the motion includes
irrelevant and largely frivolous complaints about
defense counsel. *9eeECF No. 17 at m 1-19, 22, 27-32.
She has made arguments concerning the Court’s obli­
gations in considering Rule 12(b)(6) motions, id. at
Till 20-21, but those arguments are inapplicable given
that previous court decisions of which I may take
judicial notice render her claim of ownership of the
Paonia property to be false as a matter of law. I have
considered her arguments concerning claim preclusion,
id. at mi 23-26, none of which addresses the simple
point that she has asserted her claim of ownership in
the previous case (cases) and has unequivocally lost,
both at the district and the appellate levels.
Accordingly, she is likely barred by res judicata
from relitigating the ownership issues at least against
the Wisehart defendants who were also named as
defendants in Lipin v. Wisehart I.
At a minimum she is barred by collateral estoppel
from relitigating those issues against all the Wisehart
defendants in the present case, Because her claims
regarding ownership of the Paonia property are the
foundation on which all her claims rest, defendants’

App.34a

motion to dismiss must be granted.3 The Wisehart
defendants also seek an award of attorney’s fees. I
will discuss possible sanctions later in this order.
5.

Motion to Disqualify Attorney Mark Apelman and
Boyle/Apelman PC, ECF No. 16.

Ms. Lipin complains that opposing counsel, Mr.
Apelman, tiled four documents “under a spoliated
and altered caption that constitutes a forgery.” ECF
No. 16 at H 2. The four documents are Mr. Apelman’s
Entry of Appearance, ECF No. 9; a Disclosure State­
ment indicating that Wisehart Springs Inn, Inc. has
no parent corporation or publicly held corporation
owning 10% or more of its stock, ECF No. 10; a
Notice of Related Cases, identifying the cases I have
discussed in this order plus an Ohio case that I have
not discussed, ECF No. 11; and the Wisehart defend­
ants’ motion to dismiss in the present case, ECF No.
12. The gist of the motion seems to be that whereas
in the caption of the Amended Complaint as she
drafted it she sued ADW “in his individual capacity,
and in his capacity as President and ‘Alter-Ego’ of
Wisehart Springs Inn, Inc.,” (emphasis in original),
the four pleadings read “individually and in his
capacity as President of Wisehart Springs Inn, Inc.,”
i.e., not the same wording as in the Amended Com­
plaint. ECF No. 16 at Kf 5.

3 One could argue that, having had the property ownership
issue decided in Lipin v. Wisehart 1, Ms. Lipin lacks standing
now to assert a claim based on her ownership of that property.
That issue has not been raised or briefed by the parties. Thus,
assuming arguendo that she does have standing, her claims arc
nevertheless barred by claims preclusion.

App.35a

Mr. Apelman, foolishly in my opinion, responds
that he changed the caption and omitted the reference
of ADW as the “alter-ego” of the Wisehart Springs
Inn, Inc. because that characterization was a theory
of recovery, not a legal capacity, and therefore was
“verbiage.” ECF No. 21 at 2. If lie objected to the way
Ms. Lipin captioned her case, the solution was not to
take it upon himself to change her caption. He could
either ask the plaintiff to change the caption or, if
this would be futile, bring his concern to the attention
of the Court with a motion and let the Court resolve
it. Changing her caption was just an invitation for
trouble.
That said, however, it is much ado about nothing.
His bit of self-help is not ground for disqualification,
and certainly it is not indicative of “spoliation” or
“forgery.” Ms. Lipin has a history of filing motions to
disqualify lawyers and judges, and it does not appear
to take much for her to do so. Accusing Mr. Apelman
of forgery or spoliation, seemingly terms she does not
understand to begin with, is frivolous and groundless.
Ms. Lipin also argues that Mr. Apelman will be
a necessary witness at the “evidentiary hearing” in
this case and, therefore, should be disqualified under
Rule 3.7 of the Colorado Rules of Professional Conduct.
ECF No. 16 at 7, % 18. Whether that rule would
apply in the event of an evidentiary hearing on the
merits or a trial is irrelevant, as there will not be a
hearing or trial in this case. The rule would not dis­
qualify Mr. Apelman in the event of an evidentiary
hearing on the reasonableness of an attorney’s fee
request.
The Court has considered the other arguments in
the motion, including a conclusory assertion that Mr.

App.36a

Apelman conspired with the Delta County Assessor
to alter public records that has no evidentiary support,
and finds that none of them provides any basis for
disqualification of Mr. Apelman or his law firm.
C.

Motion to Dismiss (Rebecca Geyer), ECF No. 19.

Ms. Geyer, an Indiana attorney specializing in
Trusts and Estates law, was retained to express opin­
ions in Lipin v. Wisehart I (and in the Delta County
case) regarding the validity of the Trust and the
Appointment of Co-Trustees. Her opinions were pro­
vided in an affidavit. Consistent with her affidavit,
this Court and the Tenth Circuit have found that the
Trust owned the property, and that the Appointment
of Co-Trustees was a valid instrument. Representing
herself pro se, Ms. Geyer argues that because the
ownership issue has been resolved in Lipin v. Wisehart
I, the claims against her (which rest on Ms. Lipin’s
assertion that she owns the Paonia property) should
be dismissed based upon issue preclusion (collateral
estoppel), ECF No. 19 at 2-4. I agree, as noted with
respect to the Wisehart defendants, that the Murdock
requirements for collateral estoppel are met.
Even more fundamentally, Ms. Geyer argues that
because her involvement was solely that of a witness,
she should be granted immunity in this case. Again, I
agree. See PJ ex rel. Jensen v. Wagner, 603 F.3d 1182,
1196 (10th Cir. 2010) (“Like the absolute immunity
afforded prosecutors who perform actions intimately
associated with the judicial process, '[t]he immunity
of parties and witnesses from subsequent damages
liability for their testimony in judicial proceedings is
well established in the common law. . . . ’ Testifying
witness immunity is ‘supported by the public policy

App.37a

of preserving the truth finding process from distortions
caused by fear of suit.”’) (quoting Spielman v. Hilde­
brand, 873 F.2d 1377, 1382 (10th Cir. 1989)). See also
Dalton v. Miller; 984 P.2d 666, (Colo. App. 1999), cert,
denied (March 27, 2000) (psychiatrist hired to perform
an independent medical examination, prepare a report,
and testify in a trial preservation deposition was
entitled to immunity from civil liability for statements
in his report and testimony). As I have noted, Ms.
Lipin has a history of relitigating issues she has lost
and expanding the litigation to include individuals
who had some role in the prior lawsuit. People such
as Ms. Geyer should not be discouraged from partici­
pation in the judicial process by the risk of facing a
subsequent damages suit by a party who does not
like their opinions.
D.

Motion to Dismiss (Debbie Griffith), ECF No. 22.

Ms. Griffin was sued in her official capacity as
the Delta County Assessor, which in substance is a
suit against Delta. County, not against Ms. Griffin in­
dividually. See, eg., State v. Nieto, 993 P.2d 493, 508
(Colo. 2000). The Assessor maintains certain official
records; Ms. Lipin asserts, in conclusory language, that
Ms. Griffith conspired with Mr. Apelman to alter or
destroy public records. No facts are alleged that could
make out a plausible claim. In any event, the gravamen
of the complaint against the Assessor again comes
back to Ms. Lipin’s claim of ownership of the Paonia
property, with which she apparently seems to think
Ms. Griffith interfered in some improper way. Because
that issue was resolved in Lipin v. Wisehart I (and in
the Delta County suit), based not upon the Assessor’s
records but upon the* terms of the Trust documents. I
find and concludes that Ms. Lipin’s claim against

App.38a

Delta County based on the Assessor’s acts is barred
by claim preclusion (collateral estoppel).
Defendant also argues that Ms. Lipin’s common
law fraud claim (Claim VII) is barred by the Colorado
Governmental Immunity Act, specifically, by her failure
to provide statutory notice per C.R.S. § 24-10-109(1).
ECF No. 22 at 7-9. I agree. That failure is jurisdic­
tional.
Defendant seeks an award of attorney’s fees on
several grounds. I discuss sanctions immediately below.
E.

Sanctions.

The history of this case, which is consistent with
Ms. Lipin’s litigation history elsewhere, indicates that
Ms. Lipin will not respect the orders of courts in which
she files lawsuits and is heedless of the impacts,
financially and otherwise, that her lawsuits have on
the persons she sues. The present lawsuit is, simply
put, an abuse of the litigation process.
As a sanction for the filing of this repetitive and
meritless case, the Court orders that Ms. Lipin may
not file another pro se lawsuit, in her name or in
anyone else’s name, in the United States District Court
for the District of Colorado which raises her claim of
ownership of the Paonia property or her claim that
the Co-Trustee Agreement is invalid or unenforce­
able, without the express advance approval of one of
the United States District Judges in this district.
Some of the defendants have requested an award
of attorney’s fees. I decline to address that issue on
the present record. It could be that one or more
defendants might elect not to pursue a monetary
sanction in order to avoid prolonging the litigation.

App.39a

If, however, one or more defendants elects to pursue
a possible attorney’s fees award, I will need briefing
on the specific grounds. For example, as to C.R.S.
§ 13-17-101 et seq., does it apply in this federal case?
See McCoy v. West, 965 F. Supp. 34, (D. Colo. 1997).
Does C.R.S. 13-17-201 apply at all? Does 28 U.S.C.
§ 1927 apply to a pro se litigant (and does the fact, if it
is a fact, that Ms. Lipin is a lawyer make a difference?
See Hutchinson v. Pfeil, 208 F.3d 1180, 1187 n.9 (10th
Cir. 2000). Are there grounds for a sanction under
Rule 11 of the Federal Rules of Civil Procedure? If the
decision is to pursue a fee award, I request that the
defendant or defendants, in addition to identifying the
statutory basis, specifies the amount of fees requested
and provide itemized billing records and any other
relevant documentation. Ms. Lipin will have an oppor­
tunity to respond in writing, and the Court will also
hold a hearing.
ORDER
1. The Wisehart defendant’s motion to dismiss,
ECF No. 12, is GRANTED.
2. Plaintiffs motion to disqualify counsel, ECF
No. 16, is DENIED.
3. Defendant Geyer’s motion to dismiss, ECF
No. 19, is GRANTED.
4. Defendant Debbie Griffith’s motion to dismiss,
ECF No. 22, is GRANTED.
5. This civil action and all claims therein are
dismissed with prejudice.

App.40a

6. As the prevailing parties, defendants are award­
ed costs to be taxed by the Clerk of Court pursuant to
Fed. R. Civ. P. 54(d)(1) and D.C. Colo. L. Civ. R. 54.1.
7. The Court reserves ruling on any requested
monetary sanction (attorney’s fees) pending the filing
of specific motions, briefing and a hearing on same.
8. Ms. Lipin is expressly precluded from filing
another pro se lawsuit, in her name or in anyone
else’s name, in the United States District Court for
the District of Colorado, which raises her claim of
ownership of the Paonia property or her claim that
the Co-Trustee Agreement is invalid or unenforceable
without the express advance approval of one of the
United States District Judges in this district.
Dated this 3rd day of January, 2020.

By the Court:
Isl R. Brooke Jackson
United States District Judge

App.41a
UNITED STATES COURT OF APPEALS
FOR THE TENTH-CIRCUIT, ORDER DENYING
PETITION FOR REHEARING ENBANC
(FEBRUARY 16, 2021)
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
JOAN CAROL LIPIN,
Plain tiff-Appellant,
v.
WISEHART SPRINGS INN, INC.; ARTHUR D.
WISEHART, IN HIS INDIVIDUAL CAPACITY AND
IN HIS CAPACITY AS PRESIDENT AND “ALTER-EGO” OF

Wisehart Springs Inn, Inc.; MARK APELMAN;
DEBBIE GRIFFITH, in her official capacity as
Delta County Assessor; REBECCA W. GEYER;
ELLENE. WISEHART; RICHARD HUNTER
KREYCIK; ERIN M. JAMESON,
Defendants-Appellees.
No. 20-1007
(D.C. No. 1; 19-CV-00935-RBJ)
(D. Colo.)
Before: HOLMES, Circuit Judge, LUCERO,
Senior Circuit Judge and EID, Circuit Judge.

App.42a

This matter is before the court on Appellant’s
Petition for Rehearing En Banc. Having carefully
considered the petition, we direct as follows:
To the extent the appellant seeks rehearing by
the panel, the petition is denied pursuant to Fed. R.
App. P. 40.
The petition for rehearing en banc was transmitted
to all of the judges of the court who are in regular active
service. As no member of the panel and no judge in
regular active service on the court requested that the
court be polled, the petition seeking rehearing en banc
is denied pursuant to Fed. R. App. P. 35(f).

Entered for the Court
Is/ Christopher M. Wolnert
Clerk of the Court

Additional material
from this filing is
available in the
Clerk's Office.

